Case: 20-55921, 09/17/2020, ID: 11828071, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 17 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

VINCENT W. SHACK,
Plaintiff-Appellant,
v.

No.

20-55921

D.C. No.
5:19-cv-02494-PA-SP
Central District of California,
Riverside

NBC UNIVERSAL MEDIA, LLC; et al.,
ORDER
Defendants-Appellees.
Before: O'SCANNLAIN, RAWLINSON, and CHRISTEN, Circuit Judges.
A review of the record demonstrates that this court lacks jurisdiction over
this appeal because the August 31, 2020 notice of appeal was not filed within 30
days after the district court’s judgment entered on April 30, 2020 or the post­
judgment order entered on June 17, 2020. See 28 U.S.C. § 2107(a); United States
v. Sadler, 480 F.3d 932, 937 (9th Cir. 2007) (requirement of timely notice of
appeal is jurisdictional). Consequently, this appeal is dismissed for lack of
jurisdiction.
All pending motions are denied as moot.
DISMISSED.

MF/Pro Se

Case 5:19-cv-02494-PA-SP Document 108 Filed 04/29/20 Page 1 of 6 PagelD#:794
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

CV 19-02494 PA (SPx)

Title

Vincent W. Shack v. NBC Universal Media, LLC' ct al.

Present: The Honorable

April 29, 2020

PERCY ANDERSON, UNITED STATES DISTRICT JUDGE

T.Jackson

Not Reported

N/A

Deputy Clerk

Court Reporter

Tape No.

Attorneys Present tor Plaintiff:

Attorneys Present for Defendants:

None

None

Proceedings:

IN CHAMBERS

On April 3, 2020, the Court ordered plaintiff Vincent W. Shack (“Plaintiff”) to show cause in
writing why this action should not. be dismissed for lack of subject matter jurisdiction under the RookcrFcldman doctrine. (Dkt. 89.) Plaintiff filed a Response on April 13, 2020. (Dkt. 99 (“Response”).) hi
addition, defendants NBC Universal Media, LLC, Samsung .Electronics America Inc., IMG Worldwide,
Inc., and Ladies Professional Golf Association (collectively “Defendants”) have all filed Motions to
Dismiss this action. (Dkts. SI, 84, and 88.) Defendants all argue this action should be dismissed
because it is barred under (I) the doctrine of res judicata, and (2) the applicable statutes of limitations.
Plaintiff has filed Oppositions to these respective motions. (Dkts. 95, 96, 100.) Defendants have filed
Reply briefs. (Dkts. 97, 98, 101.) Pursuant to Rule 78 of the Federal Rules of Civil Procedure and Local
Rule 7-15, the Court finds this matter appropriate for decision without oral argument. For the reasons
discussed below, the Court Ends that the Rooker-Fcldman doctrine bars the Court from having subject
matter jurisdiction over Plaintiffs claims. This action is dismissed in its entirety.
I.

Background

On February 4f2009, Plaintiff filed a complaint in the Superior Court of California for the
County of Riverside against all defendants named in the present action-—IMG Worldwide, Inc., Ladies
Professional Golf Association, NBC Universal, Inc., and Samsung Electronics America, Inc.- (Dkt. 68
(“FAC”) 1|10.) Plaintiff alleged claims for intentional tort and negligence. See Shack v. NBC Universal,
2011 Cal. App. Unpub. LEXIS 1616, at *2 (Mar. 4, 2011).
*
Plaintiff s claims arose from events that occurred during the 2007 Samsung World
Championship, a professional golfing event held at the Bighorn Country Club in Palm Desert. (FAC
^1.) According to Plaintiff, NBC cameraman Dan Beard struck Plaintiff with either his camera or
forearm while recording an errant tee-shot on the 18th hole. (Id. 1J2.) Beard then “spewed derogatory
language” at Plaintiff. (Id.) Plaintiff was “visibly shaken and suffered immediate and serious injury” to
L
Plaintiff also named Dan Beard and Bighorn Properties, Inc. as defendants in his state court
action, but they are not named defendants in this action.
CV-V!) (06/04)

CIVIL SIINI'TKS - CKNKKAU

19

Page 1 ill* 6

Case 5:19-cv-02494-PA-SP

Document 108

Filed 04/29/20

Page 2 of 6

PagelD#:795

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

CV 19-02494 PA (SPx)

Title

Vincent W. Shack v. NBC Universal Media, L'LC et al.

April 29,2020

his neck area and “other physical and 'mental injuries.’' (Id.) Beard reported to police and tournament
security personnel that Plaintiff threatened him. (Id. at ^3.) Plaintiff believes Beard made false
statements in his report. (Id) The head of security for the tournament informed Plaintiff that no charges
would be filed, and that Plaintiff was free to attend the tournament the following day. (Id at ^|4.)
However, when Plaintiff attempted to enter the tournament the next day, he was denied admission. (IcL
at f[o.) Police officers removed Plaintiff from the tournament. (Id at 1|6.) Plaintiff said this experience
was “demoralizing’' and “demeaning” because he relics on the golf community for professional
opportunities. (kLat^|6.)
In state court, Plaintiff “generally alleged that IMG, the LPGA, NBC, and Samsung were
responsible in some manner for Beard’s 'outrageous battery’ or act of sulking him in the neck. (Id at
*[23.) Defendants all filed successful motions to strike Plaintiffs claims under California’s anti-SLAPP
statute. See Shack, 2011 Cal. App. Unpub. LEXIS 1616, at *2. Plaintiff filed an appeal. Id. The
California Court of Appeal affirmed the orders striking Plaintiff s two claims for relief and dismissing
his complaints against Defendants. Id_ at *4. The appellate court concluded that Plaintiff's claims were
v/—
properly' stricken because both could be based solely on defendants’ protected activities" of making
“reports to police and security personnel that Shack threatened Beard/' IcL at *3. The appellate court
also concluded that Plaintiff iailed to demonstrate a reasonable probability of prevailing on his claims,
which were subject to the absolute litigation privilege of California Civil Code §47(b). IcL at *3-4. On
May 11, 2011, the California Supreme Court denied Plaintiff's petition for review. (FAC, Ex. B.)
Plaintiff has now filed an action in this Court against the same Defendants concerning the same
events alleged in his state lawsuit. The FAC alleges that the Court has federal question subject matter
jurisdiction pursuant to 28 U.S.C. §1331. (Id. at .) The FAC presents four claims for relief: (1)
misuse of First Amendment through utilization of California’s [anti-SLAPP], (2) violation of the Ralph
Civil Rights Act, Cal. Civ. Code § 51.7, (3) violation of die Unruh Civil Rights Act, and (4) violation of
42 U.S.C. § 1983. (Id. at 10-15.) On April 3, 2020, the Court ordered Plaintiff to show cause in writing
why this action should not be dismissed for lack of subject matter jurisdiction because Rooker-Feldman
applied. (Dkt. 89.)
II.

Legal Standard

The Rooker-Feldman doctrine prevents a federal district court from having subject matter
jurisdiction to hear a direct appeal from a final judgment of a state court. Sec Noel v. Hall, 341 F.3d
1148, 1158 (9th Cir. 2003); D.C-. Court of Appeals v. Feldman. 460 U.S. 462, 4S2 (1983); Rooker v. FidTrust Co., 263 U.S. 413, 416 (1923). As the Supreme Court has explained, this doctrine'applies to
“cases brought by state-court losers complaining of injuries caused by stale-court judgments rendered
before the district court proceedings commenced and inviting district court review and rejection of those
judgments." Exxon Mobil Con?, v. Saudi Basic Indus. Com.. 544 U.S. 280, 284 (2005). Even if a
plaintiff frames his claim as a constitutional challenge, if he seeks what, in substance, would be appellate
review of a state judgment, the action is barred bv Rooker-Feldman. See Bianchi v. Rylaarsdam, 334
CV-90 (06/04)

CIVII. .MINUTES - Gl/NKRAI.

20

Pago 2 uf6

Case 5:19-cv-02494-PA-SP

Document 108

Filed 04/29/20

Page 3 of 6

Page ID #:796

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

CV 19-02494 PA (SPx)

Title

Vincent W. Shack v. NBC Universal Media, LLC ct al.

April 29, 2020

F.3d 895, 901 n.4 (9th Cir. 2003).
To determine whether the Rookcr-Fcldman doctrine applies, a federal district court must assess
whether the plaintiff is attempting to bring a “forbidden dc facto appeal.’' Sec Noel v. Hall, 341 F.3d
1148, 1163 (9th Cir. 2003). A case is a de facto appeal *‘[i]f a federal plaintiff asserts as a legal wrong
an allegedly erroneous decision by a state court, and seeks relief from a state court judgment based on
that decision.” kk at 1 164. If the case is a dc fttcio appeal, the plaintiff is also ban-ed from litigating
“any issues that are ‘inextricably intertwined’ with issues in that dc facto appeal.” Kougasianv. TMSL,
Inc., 359 F.3d 1 136, 1142 (9ih Cir. 2004) (citing Nook 341 F.3d at 1158). Issues presented arc
inextricably intertwined “[w]herc the district court must hold that the state court was wrong in order to
find in favor of the plaintiff.” Doe & Assocs. Law Offices v. Napolitano, 252 F.3d 1026, 1030 (9th Cir.
2001); Cooper v. Ramos. 704 F.3d 772, 782 (9th Cir. 2012).
Ill.

Analysis
A.

Rooivcr-Ecldxnan Doctrine

After reviewing Plaintiff's First Amended Complaint and Response to the Court’s Order to Show
Cause, the Court finds that this action is a de facto appeal of the California Co ml of Appeal’s ruling in
Plaintiff’s prior lawsuit against Defendants. Therefore, the Rookcr-Fcldman doctrine prevents this Court
from having subject matter jurisdiction over this action.
In the FAC, Plaintiff states “[h]e is asking the honorable court to respectfully permit a reversal
and to add a claim for ‘intentional infliction of emotional distress.’” (FAC at 12.) The Court interprets
this to mean that Plaintiff is asking the Court to overturn the final judgment in Plaintiff’s state court
action. Plaintiff believes his state court claims “were never properly disposed of ’ due to Defendants’
anti-SLAPP motions. (Response at 4.) He even contends “the SLAPP motion[s] should have been
denied and sanctions applied.” (Id. at %25.) Plaintiff essentially asks the Court to “hold that the state
court was wrong in order to find in favor of the plaintiff.” Doe & Assocs. Law Offices v. Napdlitano,
252 F.3d 1026, 1030 (9th Cir. 2001). Rooker-Feldman bars the Court from doing so.
Plaintiffs Response to the Order to Show Cause further illustrates that this is a dc facto appeal.
Specifically, Plaintiff states “[h]e is asking the houorable court to respectfully permit [the] Victim Claim
Board an opportunity to examine the said Complaint and to add a claim for ‘intentional infliction of
emotional distress.’” (Response 1i29: see also FAC at 15 (“The plaintiff clearly documents being denied
leave from the Fourth (4th) District Court of Appeal which would have permitted the State Attorney of
California General Counsel to gain proper jurisdiction to review his Victim Government Claim”).)
Plaintiffs request would require the Court to review his state action and reverse the California Court of
Appeal for Plaintiffs benefit. The Court lacks the power to issue such a ruling. Compare Cooper v.
Ramos, 704 F.3d 772, 778 (9th Cir. 2012) (Rooker-Feldman applies where a party, “having lost in state
court, ‘essentially invited federal courts of first instance to review and reverse unfavorable state-court
CV-90 (06/04)

CIVII. MI-NUTliS - (UINtlRAf.

21

P;igo 3 of6

•

Case 5:19-cv-02494-PA-SP

Document 108 Filed 04/29/20 Page 4 of 6

Page ID #:797

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

CV 19-02494 PA (SPx)

Title

Vincent W. Shack v. NBC Universal Media, LLC et al.

April 29, 2020

judgments.’”) (quoting Exxon Mobil. 544 U.S. at 283).
Plaintiff also contends that the California Court of Appeal failed to uphold his First and
Fourteenth Amendment rights -but this argument docs not prevent application of Rookcr-Feldman.
( See FAC at 15; Response
33-34.) Other courts have found that “[a] losing party in state court is
[] barred from seeking what in substance would be appellate review of a state judgment in federal district
court, even if the party contends the state judgment violated his or her federal rights.” Feldman v.
McKay, 2015 U.S. Dist. LEXIS 159741, at *8 (C.D. Cal. Nov. 25, 2015) (collecting cases) (emphasis
added). In fact, “Rookcr-Feldman bars federal adjudication of any suit in which a plaintiff alleges an
injury based on a state court judgment and seeks relief from that judgment.” Bianchi, 334 F.3d at n.4.
Plaintiff has failed to demonstrate that this action is not a do facto appeal. Instead, Plaintiff
argues that federal question jurisdiction exists because each of his four claims is based on a violation of
his First or Fourteenth Amendment rights. (Response at pg. 4, 8 and f^[2, 20, 21,23, 30-33 (arguing
Claim 1 is for violation of the First Amendment; Claim 2 and 3 are for violations of the Fourteenth
Amendment, and Claim 4 is for violation of both the First and Fourteenth Amendments).) This
argument is insufficient to overcome Rookcr-Feldman. Moreover, Plaintiff has failed to demonstrate
that his alleged injuries even arose from stale action. “The state-action element in § 1983 excludes from
its reach merely private conduct, no matter how discriminatory or wrongful.” Caviness v. Horizon
Cmty. Learning Ctr., Inc., 590 F.3d 806, 812 (9th Cir. 2010) (quotations and citation omitted).
“[Constitutional standards are invoked only when it can be said that the State is responsible for the
specific conduct of which the plaintiff complains.” Naoko Olmo v. Yuko Yasuma, 723 F.3d 9S4, 994
(9th C’ir.-2013) (emphasis in original). Plaintiff has made no showing in his FAC or Response that
Defendants are state actors, or that his alleged injuries arose from state action. And even if he could
make such a showing, the Court would still be barred from exercising subject matter jurisdiction
pursuant to Rooker-Fcidraan.
B.

Alternative Grounds For Dismissal

Even if Rooker-Feldman did not apply, there would still be alternative grounds to dismiss this
action under res judicata and the relevant statutes of limitations. Res judicata bars an action when the
prior state court action (i) involved identical parties, (ii) resulted in a final judgment on the merits, and
(iii) concerned identical claims. See Bockcn v. Philip Morris USA, Inc.. 48 Cal. 4th 7SS, 797 (2010)
(citing Pconic v. Barragan. 32 Cal. 4th 236, 252-53 (2004)).- The first and second requirements arc met
here. Plaintiff has sued the same Defendants from his state lawsuit. And there was a final judgment on
the merits because the California Court of Appeal affirmed the superior court’s order striking Plaintiff’s
claims for relief pursuant to California’s anti-SLAPP statute.
Federal courts must apply state law res judicata and collateral estoppel rules when a state court
rendered the prior underlying judgment. See Holcombe v. Hosmcr, 477 F.3d 1094, 1097 (9th Cir.
2007); Migra v. Warren City School Dist. Bd. of Education, 465 U.S. 75 (1984).
2/

CV-90 (06/041

civil. MINUTES - OKNKRAL

22

Paa: 4 ot'6

Case 5:19-cv-02494-PA-SP Document 108 Filed 04/29/20

Page 5 of 6

PagelD#:798

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

CV 19-02494 PA (SPx)

Title

Vincent W. Shack v. NBC Universal Media, LLC ct al.

April 29, 2020

The Court also finds that the third requirement of res judicata is met. '‘To determine whether two
proceedings involve identical causes of action for purposes of claim preclusion, California courts have
‘consistently applied the ‘primary rights’ theory.’” IcL (quoting Slater v. Blackwood, 15 Cal. 3d 791,
795 (1975)). “When two actions involving die same parlies seek compensation for the same harm, they
generally involve die same primary right.” Icf 798 (citation omitted). Moreover, “a judgment for the
defendant is a bar to a subsequent action by the plaintiff based on the same injury' to the same right, even
though he presents a different legal ground for relief.” hi (quotations and citation omitted).
Here. Plaintiff’s FAC reiterates the same allegations against Defendants that he raised in his state
lawsuit. He seeks relief for injuries sustained as result of Defendants’ conduct at the 2007 golfing
tournament- -which was the exact basis for his original state action. The fact that Plaintiff now raises
claims for relief based on First and Fourteenth Amendment violations does not change the “primary
rights” analysis. See Brodhcim v. Cry, 584 F.3d 1262, 1268 (9th Cir. 2009) (quoting Eichtnan v.
Fotomat Corp., 147 Cal. App. 3d 1170, 1174(1983)) (“[L]f two actions involve the same injury to the
plaintiff and the same wrong by the defendant then the same primary right is at stake even if in the
second suit the plaintiff pleads different theories of recovery, seeks different forms of relief and/or adds
new facts supporting recovery.”). And Plaintiff had every opportunity to raise his current claims in his
prior lawsuit. Compare Palomar Mobilchome Park Ass’n v. City of San Marcos, 989 F.2d 362, 364 (9th
Cir. 1993) (“California, as most stales, recognizes that the doctrine of res judicata will bar not only those
claims actually litigated in a prior proceeding, but also claims that could have been litigated.”); see also
Eichman, 147 Cal. App. 3d at 1175. Alternatively, this action is dismissed in its entirety on res judicata
grounds.
The- Court also recognizes that Plaintiff’s claims would be time-barred by various statutes of
limitations. Plaintiff’s Claim 1 “ask[s] the honorable court to respectfully permit a reversal and to add a
claim for ‘intentional infliction of emotional distress.’” (FAC at 12.) A claim for intentional infliction
of emotional distress has a two-year statute of limitations. See Cal. Civ. P. Code § 335.1. As for Claims
2 and 3, claims under the Ralph Civil Rights Act or Unruh Civil Rights Act will have either a two or
three-year statute of limitations. See O’Shea v. Ctv. of San Diego. 2019 U.S. Dist. LEXIS 164600, at
*10-11 (S.D. Cal. Sept. 24, 2019) (collecting cases); K.S. v. Fremont Unified Sch. Dist., 2007 U.S. Dist.
LEXIS 24860, at *9-10 (N.D. Cal. Mar. 23, 2007) (collecting cases): Gatto v. County of Sonoma, 9S
Cal. App. 4th 744 (2002). And California’s two-year statute ofTimitations for personal injury claims
would apply to Plaintiffs Claim 4 for a violation of Section 19S3 claim. See Canatella v, Van Do
Kamp, 486 F.3d 1J28, 1132 (9th Cir. 2007) (quoting Jones v.Blanas, 393 F.3d 918, 927 (9th Cir. 2004),
cert, denied, 546 U.S. 820 (2005)); Cal. Civ. P. Code § 335.1.
Plaintiffs various claims would have likely accrued by 2009 or 2010 because he had knowledge
of his alleged injuries when they occurred at the golfing tournament in October 2007. Johnson v.
California" 207 F.3d 650, 653 (9th Cir. 2000) (“Under federal law, a claim accrues when the plaintiff
knows, or should know, of the injury which is the basis of die cause of action.’). Therefore, Plaintiffs
CV-90 (06AM)

Civil. MINUTKS - CUvNKHAI.

23

PajK 5 61’fi

J

Case 5:19-cv-02494-PA-SP Document 108 Filed 04/29/20 Page 6 of 6

Page ID *:799

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

CV 19-02494 PA (SPx)

Title

Vincent W. Shack v. NBC Universal Media, LLC et al.

April 29, 202Q

claims would have been time-barred for several years now. This is another alternative basks for
dismissal of this action.
Conclusion
Because the Court finds that this is a do facto appeal ofa state court judgment, the RookerFeldman doctrine applies. The Court is barred from exercising subject matter jurisdiction over this
action. Alternatively, this action is dismissed by virtue of res judicata and is time-barred by the statute
of limitations. Accordingly, the Complaint is hereby dismissed without leave to amend because
amendment would be futile. Sec. c.g„ Johnson v. Buckley, 356 F.3d 1067, 1077 (9th Cir. 2004)
(identifying futility as a factor in deciding whether to permit amendment): Stockman v. Hart Brewing,
143 F.3d 1293, 1298 (9th Cir. 1998) (“Although there is a general rule that parlies are allowed to amend
their pleadings, it does not extend to cases in which any amendment would be an exercise in futility or
where the amended complaint would also be subject to dismissal.") (citations omitted). The Court will
enter a Judgment consistent with this Order.
IT IS SO ORDERED.

CV-90 (06/04)

CIVIL MINUTES - CKNKK.Al.

24

Page 6 of 6

Cas e 5:19-cv-02494-PA-SP Document 109 Filed 04/30/20 Page 1 of 1 PagelD#:800
1

JS-6

2
3
4
5

6
7

8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

11

Vincent W. Shack,

12
13
14
15

Plaintiff,

CV 19-02494 PA (SPx)
JUDGMENT

v.
NBC Universal Media, LLC et al.,
Defendants.

16
17
18
19
20

21
22

Pursuant to the Court’s April 29, 2020 Order dismissing Plaintiffs First Amended
Complaint without leave to amend,
IT IS HEREBY ORDERED, ADJUDGED, AND DECREED that this action is
dismissed with prejudice in its entirety.
IT IS SO ORDERED.

23
24
25

26
27

28

DATED: April 30, 2020
Peijcy Anderson
UNITED STAGES DISTRICT JUDGE

i

RULE 29.6 CORPORATE DISCLOSURE STATEMENT
Vincent W. Shack has no parent corporation and no publicly held company owns
10% or more of its stock.

25

;

CERTIFICATE OF WORD COUNT
USCANo. 20-55921
Vincent W. Shack vs. NBC Universal et al.

Document Title: Brief for Respondent Vincent W. Shack

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the accompanying
Brief of Respondents Vincent W. Shack, pro se was prepared using Century
Schoolbook 12-point typeface, contains 4,338 words, excluding the parts of the
document that are exempted by Rule 33.1(d). This certificate was prepared in
reliance on the word-count function of the word processing system (Microsoft Word)
used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.

DATED this 8th day of July 2020.

MU
Vincent W. Shack.pro se
64337 Doral Drive
Desert Hot Springs, California 92240
ygreengolf@aol.com
(760) 218-9777

Sworn to and subscribed before me this 8th day of July 2020.

NOTARY REPUBLIC

My commission expires

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JAN 11 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

VINCENT W. SHACK,
Plaintiff-Appellant,
v.

No.

20-55921

D.C. No.
5:19-cv-02494-PA-SP
Central District of California,
Riverside

NBC UNIVERSAL MEDIA, LLC; et al.,
ORDER
Defendants-Appellees.
Before: O'SCANNLAIN, RAWLINSON, and CHRISTEN, Circuit Judges.
Appellant’s motion for reconsideration (Docket Entry No. 5) is denied. See
9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

•:

i

RECEIVED
MAR 1 5 2021

vrnsmmA

